No. 19-1339
IN THE

Supreme Court of the United States
__________

KANSAS CITY ROYALS BASEBALL CORP. ET AL.,

Petitioners,
v.
AARON SENNE ET AL., ON BEHALF OF
THEMSELVES AND ALL OTHERS SIMILARLY SITUATED,

Respondents.
__________
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit
__________
BRIEF IN OPPOSITION
__________
ROBERT L. KING
Counsel of Record
GARRETT R. BROSHUIS
KOREIN TILLERY LLC
One U.S. Bank Plaza
505 North 7th Street
Suite 3600
St. Louis, MO 63101
(314) 241-4844
rking@koreintillery.com
Counsel for Respondents
August 12, 2020

QUESTIONS PRESENTED
Petitioners’ two undisputed employment policies—
not to pay wages during training seasons and never to
pay overtime—cut across every owner, every team,
every player position, and thus every single minor
league player. In this wage-and-hour challenge to
those policies, the players offered an array of evidence
of hours worked that included team pre-game and
game schedules, travel itineraries, payroll data—and
also a survey of players’ arrival and departure times.
Under applicable state wage laws, compensable hours
worked include “all the time” an employee is “suffered
or permitted to work, whether or not required to do
so.” The players offered the survey to approximate
start and end times of a team’s typical workday. The
district court found that a team’s workday is similar
across teams and “routinized” across players. In Tyson
Foods, Inc. v. Bouaphakeo, 136 S. Ct. 1036 (2016), the
Court held that wage-and-hour employees may use a
statistical average to establish the time employees engaged in uncompensated work activities, if the evidence would be admissible in an employee’s individual
action. On appeal, petitioners abandoned their challenge to the survey’s admissibility, arguing that expert evidence must satisfy a heightened “admissibility-plus” standard. Following Tyson, however, the
lower courts applied a “no reasonable juror” standard.
The questions presented are:
1. Whether under Tyson an admissible survey offered to establish hours worked in a wage-and-hour
class action must satisfy a higher standard than the
“no reasonable juror” standard.
2. Whether Rule 23(b)(2) has an extratextual “cohesiveness” component that requires a Rule 23(b)(3) predominance-like inquiry.

ii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
INTRODUCTION ....................................................... 1
COUNTERSTATEMENT ........................................... 3
A. Factual Background .......................................... 3
B. Proceedings Below............................................. 5
C. The Ninth Circuit’s Decision ............................ 9
REASONS FOR DENYING THE PETITION ......... 15
I.

THE DECISION BELOW IS CORRECT
AND DOES NOT CONFLICT WITH WALMART OR FERRERAS. ..................................... 15
A. The decision in Tyson ...................................... 16
1. Tyson: an average of hours worked can
be used to prove a class’s hours worked ..... 18
2. Tyson: the persuasiveness of evidence
of average hours worked is a jury
question. ...................................................... 19
B. The decision below is a straightforward
application of Tyson. ....................................... 20
C. The Ninth Circuit created no wage-andhour Tyson-exception to Wal-Mart. ................ 21
D. The Ninth Circuit conducted the required
“rigorous analysis” of the survey. ................... 23
E. There is no split with the Third Circuit. ........ 25

iii
II. THERE IS NO CIRCUIT SPLIT AS TO
RULE 23(b)(2) COHESIVENESS. ..................... 26
III. THIS CASE IS A POOR VEHICLE FOR
CONSIDERING EITHER QUESTION. ............ 29
A. Both questions hinge on waived issues. ......... 30
1. Petitioners have waived key elements
of the survey question. ................................ 30
2. The “cohesiveness” question was
neither preserved nor decided below.......... 31
B. Reversal on either question would have
little or no practical effect on the outcome
of proceedings on remand. .............................. 32
1. The FLSA collective will proceed. .............. 32
2. The Rule 23 classes will proceed. ............... 32
CONCLUSION.......................................................... 34

iv
TABLE OF AUTHORITIES
Page(s)
Cases
Campbell v. City of Los Angeles,
903 F.3d 1090 (9th Cir. 2018) ............................. 32
Ebert v. General Mills,
823 F.3d 472 (8th Cir. 2016) ............................... 29
Ferreras v. American Airlines, Inc.,
946 F.3d 178 (3d Cir. 2019) ........................1, 25, 26
Gates v. Rohm and Haas Co.,
655 F.3d 255 (3d Cir. 2011) ................................. 29
IBP, Inc. v. Alvarez,
546 U.S. 21 (2005) ............................................... 10
Kartman v. State Farm Mut. Auto. Ins. Co.,
634 F.3d 883 (7th Cir. 2011) ............................... 28
Padilla v. Hanft,
126 S. Ct. 1649 (2006) ......................................... 32
Reeves v. Sanderson Plumbing Prods., Inc.,
530 U.S. 133 (2000) ............................................. 25
Romberio v. Unumprovident Corp.,
385 F. App’x 423 (6th Cir. 2009) ....................28, 29
Shook v. Bd. of Cty. Comm’rs of El Paso,
543 F.3d 597 (10th Cir. 2008) ........................27, 28

v
Tyson Foods, Inc. v. Bouaphakeo,
136 S. Ct. 1036 (2016) .................................. passim
United States v. Williams,
504 U.S. 36 (1992) ............................................... 30
Wal-Mart Stores, Inc. v. Dukes,
564 U.S. 338 (2011) ...................................... passim
Zivotofsky v. Clinton,
566 U.S. 189 (2012) ............................................. 30
Statutes
29 U.S.C. § 216(b) ..................................................... 32
Fla. Stat. § 448.110(3)............................................... 24
Other Authorities
29 C.F.R. § 778.223 ................................................... 24
29 C.F.R. § 790.6 ....................................................... 24
Ariz. Admin. Code R20-5-1202 ................................. 24

INTRODUCTION
Petitioners have a uniform training season policy:
no pay. They have a uniform overtime policy: no overtime pay. Those policies “touch and concern all members of the class” in precisely the same way—they uniformly deprive players of compensation. Wal-Mart
Stores, Inc. v. Dukes, 564 U.S. 338, 359 n.10 (2011).
And the truth or falsity of the players’ claim that those
policies violate applicable wage laws will be determined for all class members “in one stroke,” despite
the drove of unimportant differences petitioners identify. The answer will not differ for a New York pitcher,
San Diego outfielder, or Chicago shortstop.
And in fact, as the case comes to this Court, petitioners have conceded Rule 23(a)(2) “commonality—the
rule requiring a plaintiff to show that ‘there are questions of law or fact common to the class.’” Wal-Mart,
564 U.S. at 349. As the Ninth Circuit noted, petitioners did not contest commonality on appeal. App.11 n.5.
And that concession disposes of petitioners’ claim that
the decision below conflicts with either Wal-Mart or
Ferreras v. American Airlines, Inc., 946 F.3d 178 (3d
Cir. 2019), because the “crux” of both those cases was
Rule 23(a)(2) commonality. 564 U.S. at 349; Ferreras,
946 F.3d at185-86. The Ninth Circuit here, by contrast, did not decide any commonality question because petitioners did not present one.
Petitioners’ first question is even more surprising
because it showcases not just one, but two issues conceded below. On appeal, petitioners also abandoned
their objections to the admissibility of the player survey, the focal point of their first question. App.51. Instead they argued that admissibility is not enough.
They contended that the survey “must satisfy a
‘heightened ‘admissibility-plus’ standard”—for which
they cited no authority.

2
The third strike for petitioners’ first question is that
it is academic. Even if the Court reversed on petitioners’ survey question, that decision would not undo the
certifications of any of the Rule 23(b)(3) classes here.
While the survey takes center stage in petitioners’ arguments, it assumes no such role in the players’ case.
As both courts below explained, the training classes
can establish their claims independently of the survey
through other voluminous evidence, like the hundreds
of team schedules already part of the record below.
And the third, California class can as well for a substantial portion of their claims. All three (b)(3) classes
will proceed regardless of how this Court answers the
first question presented.
Petitioners’ second question fares no better. Contrary to petitioners’ assertion, the court of appeals did
not hold that Rule 23(b)(2) has no “cohesiveness” requirement. More precisely, it held that (b)(2) requires
no (b)(3)-like predominance inquiry. This Court said
the same thing in Wal-Mart: “When a class seeks an
indivisible injunction benefiting all its members at
once, there is no reason to undertake a case-specific
inquiry into whether class issues predominate ….
Predominance and superiority are self-evident.”
564 U.S. at 362-63. And petitioners cite no decision in
which a circuit court has ever held that (b)(2) does require a (b)(3)-like predominance inquiry. Besides, that
question is also academic because petitioners’ sole
claim below that the (b)(2) class lacked cohesiveness
was based on choice-of-law, an issue not before this
Court. Petitioners’ second question, having been neither presented nor decided below, is thus waived.
Neither question merits this Court’s interlocutory
review. The petition for certiorari should be denied.

3
COUNTERSTATEMENT
A. Factual Background
Forty-five baseball players brought this wage-andhour class action challenging two wage policies that
apply to every player in the minor leagues: petitioners
pay no wages during training seasons and no overtime
at any time. The players allege that petitioners’ failure to pay them minimum and overtime wages violated state and federal wage-and-hour laws. App.5-6.
Minor League Baseball consists of professional
baseball leagues that compete at levels below Major
League Baseball. Each minor league team is affiliated
with one of thirty major league teams, and MLB and
the major league franchises employ minor league
players. App.2.
The structure of the minor league system, including
players’ employment terms, is governed by the Major
League Rules. Rule 3(b)(2) requires every minor
league player to sign a standardized contract—the
Uniform Player Contract—“to produce the similarity
of conditions necessary for keen competition.” App.2.
That contract obligates each player to “perform professional services” throughout the calendar year, even
though “salary payments are to be made only during
the actual championship playing season.” App.2. It
also provides a fixed, bimonthly salary during the
championship season, meaning a player’s pay does
not vary in amount, regardless of the number of hours
worked. App.49. Those provisions–a part of every
player’s contract–codifies petitioners’ no-pay policies.
As the court of appeals noted, petitioners no longer
“seriously contest” or “credibly dispute” either policy.
App. 45, 49.
Minor league teams follow the same, well-established calendar each year. App.3-4. Spring training
lasts four weeks, starting in early March at training

4
complexes in Florida or Arizona owned by the MLB
teams. App.3. After spring training, players assigned
to a team begin the regular “championship” season,
from April through September. App.4. Players not assigned to a team remain at their Florida or Arizona
training complex for extended spring training. App.4.
Fall Instructional Leagues follow the regular season
at the training complexes. App.5.
Although petitioners claim there is no typical minor
league workday, the players presented “a variety” of
representative evidence of the similarity of routines
across clubs, including “hundreds of team schedules,”
payroll data, and testimony from players and management. App.8; see App.174 (finding variations not “significant”). During training seasons, players work
seven days without a day off. App.3. Players arrive for
morning routines in preparation for daily games that
typically start at 1:00 p.m. App.3.-4. Games last about
three hours. App.105. The championship season is
similar, except most games are played in the evening
with a 6:00 to 7:00 start time. CA9.FER150;
CA9.FER054. Games are typically played seven days
per week with only a couple of scheduled “off days”
each month. App.4, 50. As in training seasons,
pregame drills precede each game. CA9.FER49-75.
There are practical reasons schedules are fairly homogeneous across clubs. Uniformity in routines is an
inherent part of baseball for the simple reason that it
is a team sport. Not only do players play together as
teams, they play against other teams, and the teams
all play the same nine-inning game according to
standardized rules. Players arrive several hours before
games to perform team-related activities, including
drills, team stretches, throwing, fielding practice, and
batting practice. CA9.FER025-29, 038-40, 49-61, 10204, 122-36, 179, 183-84. The home team performs its
pregame activities first, followed by the visiting team.

5
CA9.FER50-51, 55-56, 179, 183-84. And in both the
regular and training seasons, teams perform daily
pregame routines based on game times. CA9.ER214
(because of similar game times, “your pregame work
is going to be done [at] similar times”). One inescapable reality cuts across leagues, teams, positions, employers, and worksites: teams have to share a single
field before games. Workdays are similar as a matter of
necessity.
B. Proceedings Below
The players explained to the district court how they
would prove their claims on a classwide basis. Establishing employee status would be primarily based on
petitioners’ own documents in which they repeatedly
refer to players as “employees.” The Uniform Player
Contract also uses variants of “employ” time and
again. App.3. In addition, petitioners provide employee benefits, like health insurance, workers’ compensation, and pension plans. And during the season—when petitioners pay some wages—petitioners
deduct employment-related withholdings like taxes.
Proving hours worked would be less straightforward
because petitioners did not keep time records, and
that is because they consider themselves exempt from
wage laws and associated time-keeping requirements.
Nevertheless, a variety of internal records will “fill
[that] evidentiary gap.”1 App.8. Pre-game schedules,
game schedules, travel itineraries, recorded game
lengths, payroll data, and testimony of dozens of witnesses can prove the lion’s share of a typical minor
league workday. App.130.

1

See Tyson, 136 S. Ct. at 1040.

6
Many witnesses testified, however, that team schedules do not tell the whole story. 2 Required team activities began earlier and continued later than schedules
reflect, including things like team meetings. App.13031 n.4. To estimate start-of-day and end-of-day team
activities, the players commissioned a player survey.
App.99-106. And contrary to petitioners’ unsupported
assertions (at 2, 25), the survey sample was, indeed,
“random” in accordance with standard survey methodology, as the district court mentioned three times.
App.100, 139, 162. The survey asked players when
they most often arrived at and departed from their
ballparks or training complexes. The players suggested a jury could use “[t]he 10th percentile … to reveal when the required team work began because it
represents the time by which 90% of respondents had
already arrived at work.” App.130.
In early proceedings, the district court certified a
Fair Labor Standards Act (FLSA) collective. Later, the
players moved for Rule 23 certification of classes under the wage-and-hour laws of eight states, covering
not only training seasons and the championship season, but also winter conditioning. Petitioners simultaneously moved to decertify the FLSA collective. They
also filed a motion to exclude the player’s preliminary
“pilot” survey. The district court granted petitioners’
motions and denied plaintiffs’ motion for certification.
Days later, the main survey of over 700 players was
completed. App.99. It addressed the criticisms petitioners had made of the pilot survey, and the players
sought leave to propose a narrowed FLSA collective
and Rule 23 classes, which the district court granted.

2

See, e.g., CA9.FER214; CA9.FER063-67, 074, 211; CA9.FER16267; CA9.SER844; CA9.SER405-06; CA9.SER425-26; CA9.SER311;
CA9.SER361; and CA9.SER374.

7
App.99-106. The players narrowed their class proposals “significantly,” proposing two Rule 23(b)(3)
training classes under Arizona and Florida law, and
one championship season class for the California
League. App.106-07, 174. They also proposed a Rule
23(b)(2) injunctive relief class and FLSA collective
with definitions that tracked the narrowed (b)(3) classes. App.106-07.
Petitioners again moved to exclude the players’ survey on relevancy and Daubert grounds, raising a raft
of new criticisms since their earlier objections had
been addressed. App.138. Though they cursorily disputed Rule 23(a)(2) commonality in a footnote, petitioners’ primary focus was Rule 23(b)(3)’s predominance requirement. App.122, 124. First, they argued
that variances among players’ work activities and
schedules defeated predominance. App.122. Second,
they argued that choice-of-law questions would turn
on individualized inquiries. App.123.
This time, the district court denied petitioners’ motion to exclude the survey, concluding that it was relevant and had been conducted in accordance with accepted principles of survey methodology. App.154-57.
Specifically, the court held that under labor law’s “continuous workday” rule—which presumes all activities
after the “whistle blows” are compensable—the survey’s average player arrival and departure times would
“be helpful to the jury, especially when considered in
combination with other evidence such as the daily
schedules and witness testimony.” App.154-55.
With respect to all proposed classes and the FLSA
collective, the court found “a number of common and
central questions that are likely to give rise to common answers,” including:
1) whether the Clubs and MLB are joint employers; 2) whether the activities Minor

8
League players perform at the ballpark and/or
in connection with games constitute “work” …;
and 3) whether the common compensation policies applied to Minor Leaguers by Defendants
under the Minor League Rules and Uniform
Player Contracts—including failure to pay
players a salary outside the championship
season and failure to pay minimum wage and
overtime during the championship season—
violate the applicable wage and hour laws.
App.165-66.
The court also found that variances in player work
activities and workday length did not predominate
over the common questions. By focusing on team activities, the players “have significantly reduced the
variations” and “the remaining variations are not so
significant as to preclude a jury from addressing
Plaintiffs’ claims on a classwide basis.” App.173-74.
The court also found “that the activities of minor
league players are, in fact, routinized.” App.159. And
the court found that the survey, “in combination with
other evidence … may be sufficient to allow a jury to
draw conclusions based on reasonable inference as to
when players were required to be at the ballpark and
how long after games they were required to remain at
the ballpark.” App.176.
Since the FLSA collective action would obviously be
controlled by federal law, there were no choice-of law
issues that could defeat certification, and it recertified
the collective. App.195. Likewise, the court concluded
that the proposed California class presented no choiceof-law issues because California law applied to those
claims, so it also certified a California class. App.187.
But the court denied certification of Arizona and
Florida classes due to its uncertainty that only Arizona and Florida law would apply to work performed

9
exclusively in those states: “the choice of law questions
that are likely [to] arise in connection with the Florida
and Arizona classes defeat the predominance requirement as to those classes.” App.189, 192.
The court also denied certification of a Rule 23(b)(2)
class. Contrary to petitioners’ recitation (at 9), however, the court’s sole reason was choice-of-law concerns:
As discussed above, it is not apparent that [it]
is appropriate to apply the law of the states
where spring training is conducted to the
claims of all class members. As a consequence,
the Court could not necessarily adjudicate the
claims of the Rule 23(b)(2) classes or fashion a
remedy (assuming Plaintiffs’ claims are meritorious) based on the law of only one or two
states. Instead, it could potentially be required to apply the law of numerous states to
Plaintiffs’ claims, which undermines the cohesiveness of the class and makes certification of
Plaintiffs’ proposed (b)(2) class inappropriate.
App.192. The court found no other “cohesiveness” impediments to those classes.
Both sides petitioned for Rule 23(f) interlocutory review, and the parties’ appeals followed.
C. The Ninth Circuit’s Decision
Much of the Ninth Circuit’s decision focused on the
choice-of-law question. In its reversal on that issue,
the court of appeals held that Florida law governs the
wage-and-hour claims for work performed exclusively
in Florida, and the same for Arizona. App.33-34. That
ruling, , which is not before this Court, thus removed
the only obstacle the district court had found to certification of the Florida, Arizona, and (b)(2) classes.
With that issue resolved, the court turned to Rule
23(a)’s four threshold requirements—commonality,

10
typicality, numerosity and adequacy. The court noted
that “defendants contest only adequacy on appeal” (an
issue not raised in the petition) and therefore did not
consider commonality, instead focusing on petitioners’
(b)(3) predominance arguments. App.11 n.5.
As a preface to its predominance analysis, the court
explained two other rules upon which the players had
relied: the continuous workday rule and this Court’s
holding regarding the use of representative evidence
in a wage-and-hour class action in Tyson Foods, Inc.
v. Bouaphakeo, 136 S. Ct. 1036 (2016). The continuous
workday rule, recognized in IBP, Inc. v. Alvarez,
546 U.S. 21 (2005), “presumes that once the beginning
of the workday is triggered, an employee performs
compensable work throughout the rest of the day until
the employee completes their last principal activity …
whether or not the employee actually engages in work
throughout that entire period.” App.42. And in Tyson,
this Court held that “representative evidence” could
be used to prove liability in a wage-and-hour class action, so long as the evidence would be admissible in an
individual action. App.40-41.
The Ninth Circuit’s discussion addressed petitioners’ two main predominance arguments. First petitioners contended that because the survey “asked only
about arrival and departure times at the ballpark and
not about what activities the players actually performed while at the ballpark,” the players could not
rely on the continuous workday rule “because there is
no way to determine the beginning or end of the ‘workday.’” App.43-44. Second, they contended that “significant variations in players’ arrival and departure
times” defeated predominance. App.44.
With respect to the Florida and Arizona classes, the
court of appeals “easily” affirmed the district court’s
Rule 23(b)(3) finding that the common questions predominated over any individualized questions because

11
during those training seasons “virtually all players
are completely unpaid for their participation.” App.44.
Therefore—as the district court correctly held
—liability can be established simply by showing that the class members performed any compensable work. That is easily resolved on a
classwide basis by answering two questions:
(1) are the players employees of defendants,
and (2) do the minor league team activities during these periods constitute compensable work
under the laws of either Arizona or Florida? We
hold that these two “common, aggregation-enabling issues in the case are more prevalent
[and] important than the non-common, aggregation-defeating, individual issues,” therefore
making certification appropriate.
App.45 (quoting Tyson, 136 S. Ct. at 1045). The court
agreed “that as to these classes, many of defendants’
protests go to damages, not liability.” App.46.
The court further noted that the survey “was but one
piece of the plaintiffs’ representative evidence—evidence that also included hundreds of internal team
schedules and public game schedules, payroll data,
and the testimony of both players and league officials.” Id.; see App.44 (“despite defendants’ repeated
suggestions to the contrary, the representative evidence offered by plaintiffs was not limited to just the
Main Survey”). Even without the survey, “team schedules will serve to conclusively demonstrate that the
players spent time working for which they were uncompensated.” App.47-48.
The court also affirmed the district court’s finding
that common questions predominated for the California class. Because California class members “do get
paid, albeit not much,” their claims would require

12
more than just proof of “any compensable work,” unlike the Florida and Arizona classes. App.45, 48. But
even so, “team schedules alone—independent of the
Main Survey or any other evidence—may suffice to
show overtime liability” because “65-85% of California
League players had at least one workweek with games
on all seven days, and … nearly half of all workweeks
included games on all seven days. For those workweeks, the players would be entitled to overtime pay
for their work on the seventh day of the workweek.”
App.49-50.
The court also rejected petitioners’ survey-related
predominance arguments. Petitioners did not challenge the district court’s Daubert ruling, so the Ninth
Circuit did not consider any question concerning the
survey’s admissibility. Petitioners instead argued that
admissibility is not enough at the certification stage:
“The rigorous analysis of expert evidence proffered to
satisfy class … requirements is not a question of
threshold admissibility” because such evidence must
satisfy a “heightened ‘admissibility-plus’ standard.”
Def. Br. (ECF No. 38) at 45. The court of appeals disagreed, holding that under Tyson, “where the evidence
is admissible—for expert evidence, using the Daubert
standard—then the ‘no reasonable juror’ standard at
the class certification stage applies.” App.41.
Because defendants do not challenge the district court’s ruling on admissibility under
Daubert, the defects they have identified with
the Main Survey could only have defeated certification upon a conclusion that all of the representative evidence offered—the Main Survey, schedules, testimony, and the like—could
not have “sustained a reasonable jury finding
as to hours worked in each employee’s individual action.”

13
App.51 (quoting Tyson, 136 S. Ct. at 1046-47). The district court had “found the opposite”—that the survey
in combination with other evidence was sufficient to
sustain such a jury finding—so the Ninth Circuit then
considered “whether ‘the record here provides [a] basis
for [us] to second-guess that conclusion.’” App.51 (quoting Tyson, 136 S. Ct at 1049).
The Court looked to the definition of “hours worked,”
which “includes all the time the employee is suffered
or permitted to work, whether or not required to do
so.’” App.52; see also discussion at note 5, infra, (noting similarity of Arizona and Florida law). The court
concluded that California’s interpretation of those definitions entitle an employee to compensation for “all
time the employer ‘permit[s]’ an employee to work,
even if the work is not required.” App.53. (emphasis in
original). “Thus, a player who arrives early or stays
late at the ballpark of their own volition and performs
‘work’ activities during that time is still owed compensation because the player was ‘permitted’ to work, despite the work not being required.” App.53.
And under California law, “if players were expected
to arrive or depart at a particular time—whether that
requirement was de facto or official—it is immaterial
what activities the players actually engaged in while
at the ballpark.” App.53. So “[e]ven if the players
spent their time at the ballpark doing things like eating or showering, they were still … owed compensation.” App.53. Thus, the Court affirmed the district
court’s conclusion that the players may “use their representative evidence—especially the Main Survey and
the testimony of players and league officials—to persuade a jury that they were required to be at the ballpark at particular times.” App.51-52, 54.
Last, the court of appeals held that Rule 23(b)(2) has
no extra-textual (b)(3)-like “cohesiveness” requirement. App.34. The district court had held that because

14
“it could potentially be required to apply the law of numerous states” to the proposed (b)(2) class’s claims for
injunctive relief, the class was insufficiently “cohesive” for (b)(2) certification. App.192. The Ninth Circuit reversed: “Although we have never explicitly addressed whether ‘cohesiveness’ is required under Rule
23(b)(2), courts that have imposed such a test treat it
similarly to Rule 23(b)(3)’s predominance inquiry—
something we have previously rejected in no uncertain
terms.” App.34. The court “therefore remand[ed] for
the district court to consider anew whether to certify
the proposed Rule 23(b)(2) class.” App.35.
Judge Ikuta dissented, but only on state law
grounds (specifically choice-of-law grounds). App.6489. She expressed no disagreement with any other aspect of the majority’s Rule 23 analysis. Petitioners
moved for rehearing en banc, but no judge called for a
vote. App.90-91.

15
REASONS FOR DENYING THE PETITION
I.

THE DECISION BELOW IS CORRECT
AND DOES NOT CONFLICT WITH
WAL-MART OR FERRERAS.

This Court held in Wal-Mart, as did the Third Circuit in Ferreras, that the plaintiff-employees had
failed to demonstrate company-wide policies that resulted in the same injury to all members of those proposed classes. The plaintiffs had thus failed to establish any requisite Rule 23(a)(2) common question necessary to proceed as a class action.
In this case, by contrast, the players established
league-wide policies not to pay wages during training
seasons and never to pay overtime. The district court
found those policies give rise to common questions
that “give rise to common answers,” including whether
players are petitioners’ “employees,” whether their
baseball activities constitute “work,” and whether petitioners’ policies violate applicable wage-and-hour
laws. App.165. And because petitioners did not challenge that commonality finding on appeal, App.11 n.5,
the Ninth Circuit did not decide any commonality
question. Nor did the Ninth Circuit have reason to create an “exception” to Wal-Mart’s commonality holding.
The Ninth Circuit thus correctly held that petitioners’ challenge to the player survey in “reliance on WalMart is misplaced” and that a different decision of this
Court—Tyson Foods, Inc. v. Bouaphakeo, 136 S. Ct.
1036 (2016)—“controls.” App.55-56. In Tyson, this Court
held that statistical “representative” evidence may be
used in wage-and-hour class actions for “inferring the
hours an employee has worked … so long as the [evidence] is otherwise admissible,” even though individual
employees took different amounts of time to perform the
uncompensated task. Id. at 1047-49. But petitioners did
“not challenge the district court’s ruling on

16
admissibility” (App.51), and instead insisted that “[t]he
rigorous analysis of expert evidence proffered to satisfy
class … requirements is not a question of threshold admissibility” because such evidence must satisfy a
“heightened ‘admissibility-plus’ standard.” Def. Br.
(ECF No. 38) at 45. The court rejected that view, relying
on Tyson’s holding that “[o]nce a district court finds [representative] evidence to be admissible, its persuasiveness is, in general, a matter for the jury.” 136 S. Ct. at
1049. It is to be judged under the “no reasonable juror”
standard—“the same standard of proof that would apply
in any case.” Id. at 1051 (Roberts, C.J., concurring).
So, the court of appeals held that the concededly admissible player survey could, in combination with
other evidence, be used in this wage-and-hour class
action to establish the average hours players worked.
It also held that the players’ evidence of hours
worked—not just the survey in isolation—must be
judged by the “no reasonable juror” standard applicable in any other case. The decision below is thus a
straightforward application of Tyson and does not
merit this Court’s review.
A. The decision in Tyson
“Whether and when statistical evidence can be used
to establish classwide liability will depend on the purpose for which the evidence is being introduced and on
the elements of the underlying cause of action.” Tyson,
136 S. Ct. at 1046 (internal punctuation omitted). In a
wage-and-hour class action involving an employer’s
violation of its duty to keep time records, statistical
proof of the average time employees spent in uncompensated work activities is admissible if that evidence
would be admissible in an individual employee’s case,
even though individual employees took different
amounts of time to perform the uncompensated work.
Id. at 1047-49.

17
In Tyson, employees at a pork processing plant filed
a class action for unpaid, off-the-clock time spent donning and doffing protective gear. Id. at 1042. Class
members performed different work, worked in different departments, and wore different protective gear:
“The exact composition of the gear depend[ed] on the
tasks a worker perform[ed] on a given day.” Id. (kill,
cut, and retrim departments, where hogs are slaughtered, trimmed, or prepared for shipment). And “employees in different departments donned and doffed
for different amounts of time.” Id. at 1052 (Roberts,
C.J., concurring) (emphasis added). Because Tyson
had not kept records of time spent donning and doffing, the workers offered “representative evidence”
from a sample, based on an expert’s estimation of the
average time workers spent donning and doffing. Id.
at 1043-44.
Tyson did not challenge “the statistical validity” of
the workers’ studies under Daubert, but instead argued “that the varying amounts of time it took employees to don and doff different protective equipment
made the lawsuit too speculative for classwide recovery.” Id. at 1044. It objected to class certification “because of the variance in protective gear each employee
wore,” which meant “the employees’ claims were not
sufficiently similar to be resolved on a classwide basis.” Id. at 1043.
Tyson also did “not dispute that there [were] important questions common to all class members, the
most significant of which is whether time spent donning and doffing the required protective gear is compensable work.” Id. at 1045-46. But because every employee needed to prove that time spent donning and
doffing resulted in overtime for which they had not
been paid, Tyson argued “that these necessarily person-specific inquiries into individual work time pre-

18
dominate over the common questions raised by respondents’ claims, making class certification improper.” Id. at 1046.
The employees contended that “individual inquiries
are unnecessary because it can be assumed each employee donned and doffed for the same average time
observed.” Id. Tyson argued “that [the] study manufactures predominance by assuming away the very
differences that make the case inappropriate for
classwide resolution. Reliance on a representative
sample, petitioner argues, absolves each employee of
the responsibility to prove personal injury, and thus
deprives petitioner of any ability to litigate its
defenses to individual claims.” Id.
1. Tyson: an average of hours worked can
be used to prove a class’s hours worked
Whether a jury could “assume[] each employee
donned and doffed for the same average time” was
“the central dispute” in Tyson. 136 S. Ct. at 1046. And
in a wage-and-hour action involving an employer’s violation of its statutory duty to keep time records, the
Court held, such an inference is permissible:
Instead of punishing “the employee by denying
him any recovery on the ground that he is unable to prove the precise extent of uncompensated work,” … “an employee has carried out
his burden if he proves that he has in fact performed work for which he was improperly compensated and if he produces sufficient evidence
to show the amount and extent of that work as
a matter of just and reasonable inference.” Under these circumstances, “[t]he burden then
shifts to the employer to come forward with evidence of the precise amount of work performed

19
or with evidence to negative the reasonableness of the inference to be drawn from the employee’s evidence.”
Id. at 1047 (citations omitted) (quoting Anderson v.
Mt. Clemens Pottery Co., 328 U.S. 680 (1946)).
So according to Tyson, an average donning-and-doffing time constituted “sufficient evidence” under Mt.
Clemens “to show the amount and extent of … work as
a matter of just and reasonable inference.” That kind
of representative evidence, the Court held, could thus
also be used in a class action because it would have
been “sufficient to sustain a jury finding as to hours
worked if it were introduced in each employee’s individual action.” Id. at 1048.
2. Tyson: the persuasiveness of evidence of
average hours worked is a jury question.
The Court also addressed the standard for judging
the sufficiency of evidence of average hours worked in
a wage-and-hour class action at certification:
Once a district court finds evidence to be admissible, its persuasiveness is, in general, a
matter for the jury. Reasonable minds may
differ as to whether the average time [an expert] calculated is probative as to the time actually worked by each employee. Resolving
that question, however, is the near-exclusive
province of the jury. The District Court could
have denied class certification on this ground
only if it concluded that no reasonable juror
could have believed that the employees spent
roughly equal time donning and doffing. The
District Court made no such finding, and the
record here provides no basis for this Court to
second-guess that conclusion.
136 S. Ct. at 1049 (citing Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 250-52 (1986)).

20
B. The decision below is a straightforward
application of Tyson.
Given the posture of this case before the Ninth Circuit, the court correctly held that “Tyson controls.”
App.55. Both are “wage and hour cases where the employer has failed to keep proper records.” App.55. In
both cases, “the employees … were paid under the
same policy”—or rather not paid under common policies. 136 S. Ct. at 1040, 1042. Here, players were never
paid overtime and not paid at all during training seasons pursuant to uniform policies that petitioners no
longer “seriously contest” or “credibly dispute.”3
App.45-49. In both cases, the employers conceded the
existence of Rule 23(a)(2) common questions, questions that can be resolved for all class members in “one
stroke.” Wal-Mart, 564 U.S. at 350.
And in both cases, the employers conceded the admissibility of the statistical studies offered as representative evidence of hours worked. Although petitioners initially moved to exclude the player survey
here, the district court denied their motion, and petitioners did not challenge that ruling on appeal.
App.51. The consequence of that concession under Tyson is clear and dispositive of petitioners’ first question:
though “[r]easonable minds may differ as to whether
the average” arrival and departure time “is probative
as to the time actually worked by each employee,”
“[r]esolving that question … is the near-exclusive
province of the jury.” 136 S. Ct. at 1049.
3 Petitioners

say players “were paid under different compensation terms.” Pet. at i, 35. But the wages players received is not at
issue; at issue is the pay players did not receive, and that does
not vary from class member to class member. None received pay
during training seasons, and none were paid overtime. So like
the workers in Tyson, all players were denied compensation
“under the same policy.” 136 S. Ct. at 1048.

21
As the Ninth Circuit explained, because petitioners
did “not challenge the district court’s ruling on admissibility under Daubert, the defects they have identified with the Main Survey could only have defeated
certification upon a conclusion that all of the representative evidence offered—the Main Survey, schedules, testimony, and the like—could not have ‘sustained a reasonable jury finding as to hours worked in
each employee’s individual action.’” App.51 (emphasis
added). Which also disposes of petitioners’ contrived
claim (at 16) that “[u]nder the Ninth Circuit’s view, …
supposedly ‘representative’ evidence suffices to justify
class certification so long as it is minimally probative,
even if it would plainly not suffice in a class member’s
individual action.” The court expressly acknowledged
that representative evidence of hours work must be
capable of sustaining a jury finding “in each employee’s individual action.” App.51.
C. The Ninth Circuit created no wage-andhour Tyson-exception to Wal-Mart.
The decision below does not conflict with Wal-Mart,
and because there is no conflict, the court of appeals
had no reason to create—and did not create—any kind
of exception to Wal-Mart. “The crux” of Wal-Mart, a
Title VII sex discrimination case, was “commonality—
the rule requiring a plaintiff to show that ‘there are
questions of law or fact common to the class.’” 564 U.S.
at 349. In a sex discrimination case, a would-be class
representative must provide “significant proof ” of an
employer’s policy of discrimination, which acts as
“glue” in a class action, so that “all the class members’
claims for relief will produce a common answer to the
crucial question why was I disfavored.” Id. at 352-53.
The plaintiffs in Wal-Mart lacked such a discriminatory policy, so they proposed to use statistical evidence
of disparate impact on the female-employee class. This

22
Court held that “[m]erely showing that Wal-Mart’s policy of discretion has produced an overall sex-based disparity does not suffice” to demonstrate a discriminatory policy. 564 U.S. at 357. At bottom, “[b]ecause respondents provide no convincing proof of a companywide discriminatory pay and promotion policy, we
have concluded that they have not established the existence of any common question.” Id. at 359.
In Tyson, this Court said Tyson’s “reliance on WalMart” was “misplaced” because in Wal-Mart “this
Court did not reach Rule 23(b)(3)’s predominance
prong, holding instead that the class failed to meet
even Rule 23(a)’s more basic requirement that class
members share a common question of fact or law.”
136 S. Ct. at 1048. Without a common policy of discrimination, the employees could not “have prevailed
in an individual suit by relying on depositions detailing the ways in which other employees were discriminated against by their particular store managers.” Id.
“In contrast, the study [in Tyson] could have been sufficient to sustain a jury finding as to hours worked if
it were introduced in each employee’s individual action.” Id.
The same is true here. Average arrival and departure times would be admissible in an individual players’ case to estimate the beginning and ending of team
activities, just as average donning and doffing times
would have been admissible in a Tyson worker’s individual case. And like Tyson, the decision below does
not conflict with Wal-Mart because Wal-Mart is a commonality case; this case is not. Petitioners have conceded commonality, no doubt because of their two undisputed policies not to pay minimum and overtime
wages—league-wide policies that further distinguish
this case from Wal-Mart. The players here never
needed statistical evidence to overcome the absence of

23
common policy, and the Ninth Circuit did not pass on
any such question. There is no conflict with Wal-Mart.
D. The Ninth Circuit conducted the required “rigorous analysis” of the survey.
Both lower courts conducted the “rigorous analysis”
Rule 23 requires. And under Tyson, the required analysis of representative evidence of hours worked in a
wage-and-hour case has two components: “admissibility under Daubert and its appropriateness for meeting
class certification requirements under Tyson.” App.55.
Here, because petitioners did not challenge the district court’s admissibility ruling, the Ninth Circuit
proceeded directly to the Tyson analysis and applied
“the same standard of proof that would apply in any
case”—the “no reasonable juror” standard. Tyson,
136 S. Ct. at 1051 (Roberts, C.J., concurring). “Once a
district court finds [representative] evidence to be admissible, … [t]he District Court could have denied
class certification on this ground only if it concluded
that no reasonable juror could have believed that the
employees spent roughly equal time” working. That is
precisely the analysis the Ninth Circuit conducted.
App.51-54.
Instead of engaging the court’s analysis, petitioners
ridicule the survey (at 15), suggesting that a measure
of players’ arrival and departure times is “borderline
irrelevant.” But as the Ninth Circuit explained, arrival and departure times are probative of “hours
worked” under California law: “‘hours worked’ includes all time the employer ‘permit[s]’ an employee to
work, even if the work is not required and the employee is not under the employer’s control.” App.53
(quoting Morillion v. Royal Packing Co., 995 P.2d 139,
143 (Cal. 2000)). “ Thus, a player who arrives early or
stays late at the ballpark of their own volition and performs ‘work’ activities during that time is still owed

24
compensation because the player was ‘permitted’ to
work, despite the work not being required.”4
The “rigorous analysis” this Court’s precedents require “generally involves considerations that are enmeshed in the factual and legal issues comprising the
plaintiff ’s cause of action.” Wal-Mart, 564 U.S. at 351.
That is precisely what the Ninth Circuit did—it considered “the factual and legal issues comprising the
plaintiff ’s cause of action.” It is petitioners who undertake no such analysis, resorting instead to analysisby-labels, like their assertion that the survey is “borderline irrelevant.” Putting aside their relevancy
waiver, petitioners never explain by what standard—
if any—they judge the survey’s relevancy.
And petitioners’ urge “rigorous analysis” of the survey in isolation from all other evidence of hours
worked, but that would be improper. In Wal-Mart, for
example, the Court reviewed all the evidence the employees proffered. 564 U.S. at 346 (“three forms of
proof,” statistical, anecdotal, and testimonial). That is
4

The court’s discussion focused on California law because of
its earlier determination that “the Arizona and Florida classes
can demonstrate liability simply by showing they worked any
hours,” while proving some of the California overtime claims
might require use of the survey. App.49. But the survey is certainly relevant under both Arizona and Florida law, too. See Ariz.
Admin. Code R20-5-1202 (defining “hours worked” as “including
all time during which an employee is on duty or at a prescribed
work place and all time the employee is suffered or permitted to
work”); Fla. Stat. § 448.110(3) (incorporating federal law “as interpreted by applicable federal regulations”); 29 C.F.R. § 778.223
(requiring compensation for “(a) [a]ll time during which an employee is required to be … on the employer’s premises or at a prescribed workplace; and (b) [a]ll time during which an employee is
suffered or permitted to work whether or not he is required to do
so”); § 790.6(b) (defining “workday” and “includ[ing] all time
within” the workday “whether or not the employee engages in
work throughout all of that period”).

25
what the “no reasonable juror” standard requires and
exactly what the lower courts did here. App.51.; see
Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S.
133, 150-51 (2000).
E. There is no split with the Third Circuit.
Petitioners attempt to invent a circuit split, arguing
the decision below conflicts with the Third Circuit’s
later decision in Ferreras v. American Airlines, Inc.,
946 F.3d 178 (3d Cir. 2019). But Ferreras, like WalMart, is a Rule 23(a)(2) commonality case in which the
plaintiffs could not “satisfy even the commonality
standard.” 946 F.3d at 185. So, for all the same reasons that the Ninth Circuit’s decision is not in conflict
with Wal-Mart, it is also not in conflict with Ferreras.
Ferreras is also distinguishable because American
Airlines had a policy of paying for the work at issue,
so long as it was approved by a supervisor as an “exception” to “ordinary work hours.” Id. at 181. Unlike
here, the Ferreras plaintiffs did not allege that the
“overarching [American] policy regarding exceptions
has deprived anyone in particular of compensation to
which he or she was entitled.” Id. at 185. American’s
policy to pay for supervisor-approved time is the very
opposite of the players’ claim here of petitioners’ policies not to pay.5
Petitioners also claim (at 27) that “the Third Circuit
held that survey evidence of arrival and departure
times was not sufficient to allow the employees to litigate their claims on a classwide basis.” That is untrue.
The Ferreras plaintiffs offered no representative evidence, yet another critical difference between this case

5 The lack of a common policy also led inescapably to the court’s

conclusion that the plaintiffs had failed to show predominance.
946 F.3d at 186.

26
and Ferreras. Id. at 187. There is no conflict between
the Ninth Circuit’s decision and Ferreras.
II.

THERE IS NO CIRCUIT SPLIT AS
TO RULE 23(b)(2) COHESIVENESS.
Rule 23(b)(2) authorizes injunctive relief classes
when “final injunctive relief … is appropriate respecting the class as a whole.” The Ninth Circuit rejected
any (b)(3)-like “predominance” inquiry masquerading
as an extratextual (b)(2) “cohesiveness” requirement:
“Although we have never explicitly addressed whether
‘cohesiveness’ is required under Rule 23(b)(2), courts
that have imposed such a [cohesiveness] test treat it
similarly to Rule 23(b)(3)’s predominance inquiry—
something we have previously rejected in no uncertain
terms.” App.34.
That holding is unquestionably correct. Even petitioners do not deny that “Rule 23(b)(2) does not contain
a separate requirement that ‘questions of law or fact
common to class members predominate.’” Pet. at 29.
The Ninth Circuit’s view of (b)(2) mirrors what this
Court has held:
The procedural protections attending the
(b)(3) class—predominance, superiority, mandatory notice, and the right to opt out—are
missing from (b)(2) not because the Rule considers them unnecessary, but because it considers them unnecessary to a (b)(2) class.
When a class seeks an indivisible injunction
benefiting all its members at once, there is no
reason to undertake a case-specific inquiry
into whether class issues predominate …. Predominance and superiority are self-evident.

27
Wal-Mart, 564 U.S. at 362-63 (emphasis in original).6
Neither this Court nor the court below held that a
(b)(2) class need not be “cohesive,” but they both explicitly held that (b)(2) does not require predominance
inquiries to ensure (b)(2) “cohesiveness.” In other
words, “cohesiveness” is a built-in feature of Rule
23(b)(2)’s text, which achieves all the cohesiveness required because predominance is “self-evident.”
In the nine years since this Court decided Wal-Mart,
no circuit has held that Rule 23(b)(2) requires a predominance-like inquiry. And in the year since the
Ninth Circuit issued its decision, no court has disputed its holding that Rule 23(b)(2) does not require a
predominance-like inquiry. Nor do petitioners. Pet. at
29 (“Rule 23(b)(2) does not contain a separate requirement that ‘questions of law or fact common to class
members predominate”). And though the Ninth Circuit mentioned other “courts,” it did not name any
courts, nor did it say that a sister circuit had engaged
in a (b)(3)-like predominance inquiry under the guise
of a (b)(2) cohesiveness requirement.
Petitioners cite five circuit decisions as conflicting
with the decision below. The outcome in none turned
on the application of a (b)(3)-like predominance inquiry. Three of the decisions pre-date Wal-Mart, so
even if they did conflict, further percolation in the
lower courts would likely resolve the split, once those
circuits consider the issue in light of Wal-Mart.
The Tenth Circuit’s decision in Shook v. Bd. of Cty.
Comm’rs of El Paso, 543 F.3d 597 (10th Cir. 2008),
does not conflict with Wal-Mart or the decision below.
Although the court held that “Rule 23(b)(2) demands
a certain cohesiveness among class members with respect to their injuries,” id. at 604, it did not undertake
6

In Wal-Mart, the Court addressed both Rule 23(a)(2) commonality and the (b)(2) requirement for an injunctive relief class.

28
a predominance-like inquiry under the rubric of “cohesiveness.” It instead adhered to the text of Rule 23(b)(2).
As then-Judge Gorsuch explained, “[t]he latter half
of Rule 23(b)(2) requires that final injunctive relief be
appropriate for the class as a whole.” Id. (emphasis in
original). “[U]nder Rule 23(b)(2) the class members’
injuries must be sufficiently similar that they can be
addressed in a single injunction that need not differentiate between class members.” Id. Though the court
couched that textual requirement in terms of “cohesiveness,” the court conducted no (b)(3)-like predominance inquiry. The court instead noted that the plaintiffs’ “prayer for relief asks the district court to craft
an injunction that takes into account the specific circumstances of individual inmates’ plights.” Id. at 605.
So “different injunctions would be required to establish the appropriate behavior towards different groups
of class members.” Id. “[D]ifferences in proof or individualized issues” can defeat (b)(2) certification, and
when they do, it is for “failure to meet Rule 23(b)(2)’s
requirement that relief apply to the class as a whole.”
Id. at 608. There is no conflict between Shook and the
decision below. What the court wrote in Shook is essentially what Wal-Mart said later: the cohesiveness
Rule 23(b)(2) requires is an integral feature of the
rule’s requirement “that final injunctive relief be appropriate for the class as a whole.”
Nor did the Seventh Circuit approve a (b)(3)-like
predominance inquiry in Kartman v. State Farm Mut.
Auto. Ins. Co., 634 F.3d 883 (7th Cir. 2011). That court
observed, “Where a class is not cohesive such that a
uniform remedy will not redress the injuries of all
plaintiffs, class certification is typically not appropriate.” 634 F.3d at 893 n.8 (citing Shook). Which is no
more than a faithful restatement of the Rule’s text.
In Romberio v. Unumprovident Corp., 385 F. App’x
423 (6th Cir. 2009), the court expressly acknowledged

29
that “Rule 23(b)(2), unlike Rule 23(b)(3), contains no
predominance requirement.” Id. (citing Barnes v. Am.
Tobacco Co., 161 F.3d 127, 143 (3d Cir. 1998)). And
the court undertook no predominance-like inquiry.7 It
instead found (b)(2) certification inappropriate because the constructive trust the plaintiffs’ sought
could not be imposed for the class as a whole “without
individualized review of every claim.” Id.
Neither of the two post-Wal-Mart cases on which petitioners rely come close to conflicting with the decision below. In both, the courts expressly held that “a
Rule 23(b)(2) class need not meet the additional predominance and superiority requirements of Rule
23(b)(3).” Ebert v. General Mills, 823 F.3d 472, 480
(8th Cir. 2016); see Gates v. Rohm and Haas Co., 655
F.3d 255, 263-64 (3d Cir. 2011). Ebert, quoting WalMart, explained that for a (b)(2) class, “the relief
sought must perforce affect the entire class at once.”
823 F.3d at 480. And Gates relied on Wal-Mart’s holding that “[t]he key to the (b)(2) class is ‘the indivisible
nature of the injunctive or declaratory remedy warranted—the notion that the conduct is such that it can
be enjoined or declared unlawful only as to all of the
class members or as to none of them.” 655 F.3d at 264.
Both cases adhere to Rule 23(b)(2)’s text, and neither
employed nor approved a (b)(3)-like predominance inquiry. There is no circuit split.
III.

THIS CASE IS A POOR VEHICLE FOR
CONSIDERING EITHER QUESTION.
Both questions presented involve intractable waiver
problems, arising from issues abandoned or not raised
below and not considered by the court of appeals.
7

The dissent’s criticisms did not accuse the majority of utilizing a (b)(3)-like predominance inquiry under the guise of (b)(2)
cohesiveness. 385 F. App’x at 433 (Clay, J., dissenting).

30
Equally problematic is that resolution of either question is not only premature, but will also not impact the
certification of any class. A reversal on question one
will not result in the decertification of any (b)(3) class,
and a reversal on question two will have no effect on
(b)(2) proceedings on remand. Interlocutory review in
this case implicates many of the problems this Court
has repeatedly identified in interlocutory petitions.
For these reasons alone, the petition should be denied.
A. Both questions hinge on waived issues.
The Court’s “traditional rule” is to deny certiorari
“when the question presented was not pressed or
passed upon below.” United States v. Williams,
504 U.S. 36, 41 (1992) (internal quotation marks omitted). Ordinarily, the Court does “not decide in the first
instance issues not decided below,” “without the benefit of thorough lower court opinions to guide [its] analysis of the merits. Ours is ‘a court of final review and
not first view.’” Zivotofsky v. Clinton, 566 U.S. 189,
201 (2012).
1. Petitioners have waived key elements of
the survey question.
Petitioners have waived key elements of the question “whether Tyson sanctions the use of statistical
surveys to establish commonality and predominance
for a wage-and-hour class.” As already noted, petitioners abandoned any challenge to Rule 23(a) commonality below. Without ever acknowledging what the common questions are, petitioners repeatedly insisted
that the common questions were swamped by individualized questions.8 The court of appeals noted that petitioners did not contest commonality, so it unsurprising that the court did not pass on the question. App.11
n.5. Petitioners’ commonality arguments are waived.
8

Def. Br. (ECF No. 38) at 3, 24, 28, 59, 62, 75.

31
Question one is also an attempt to resuscitate the
issue of “the use of statistical surveys.” Petitioners say
(at 3) the players’ “purportedly ‘representative’ evidence … would never suffice to establish liability (or
even be admissible) in an individual action,” but that,
too, is a waived issue because petitioners did “not challenge the district court’s ruling on admissibility.”
App.51. Nor did they appeal the district court’s finding that the survey “may be helpful to the jury, especially when considered in combination with other evidence such as the daily schedules and witness testimony.” App.155. Even in this Court, petitioners concede the survey’s relevance, however grudgingly. Pet.
15 (survey is “borderline-irrelevant”). No question of
the survey’s admissibility was presented to or decided
by the court of appeals.
Commonality and admissibility are central components of question one. The question is thus waived.
2. The “cohesiveness” question was neither
preserved nor decided below.
Petitioners’ second question—“whether cohesiveness is required for class certification under Rule
23(b)(2)”—is not an issue they pressed below. Nor did
the Ninth Circuit hold that (b)(2) does not require “cohesiveness,” petitioners’ contrary assertion notwithstanding. The court narrowly held that Rule 23(b)(2)
requires no (b)(3)-like predominance inquiry. App.34-35.
Petitioners barely mentioned “cohesiveness” in the
lower courts. They did argue that choice-of-law issues
“undermine the cohesiveness of the class.” Def. Br.
(ECF No. 38) at 76-77. But in response to the players’
challenge to the district court’s adoption of a (b)(2) predominance-like “cohesiveness” requirement,9 petition-

9

See Plf. Br. (ECF No. 16) at 45.

32
ers did not defend the district court’s ruling. They neutrally footnoted that a “majority of the Circuits have
expressly recognized a ‘cohesiveness’ requirement in
Rule 23(b)(2).” Id. at 77 n.21. Even then they took no
position on the question and did not argue that the
proposed (b)(2) class is not cohesive, apart from their
choice-of-law argument. Thus, the question presented
to this Court, having not been pressed or decided below, is not preserved.
B. Reversal on either question would have
little or no practical effect on the outcome of proceedings on remand.
1. The FLSA collective will proceed.
Petitioners discuss FLSA collectives at length in
their petition, but neither question presented does.
They are both Rule 23 questions. FLSA collectives are
certified under the FLSA, not Rule 23. The “FLSA permits employees to bring lawsuits on behalf of ‘themselves and other employees similarly situated.’
29 U.S.C. § 216(b).” App.56. Under Ninth Circuit precedent, the FLSA’s standard differs from Rule 23 because it does not include the rule’s “predominance, adequacy, and superiority requirements.” See Campbell
v. City of Los Angeles, 903 F.3d 1090 (9th Cir. 2018).
The Ninth Circuit thoughtfully “address[ed] whether
the district court properly certified the FLSA collective action,” and petitioners present no question challenging that ruling. Petitioners have thus waived any
question regarding the FLSA collective.
2. The Rule 23 classes will proceed.
There are “strong prudential considerations disfavoring the exercise of the Court’s certiorari power”
when the parties’ rights “would be unaffected” or the
question presented “hypothetical.” Padilla v. Hanft,
126 S. Ct. 1649, 1650 (2006) (Kennedy, J., concurring

33
in denial of certiorari). A reversal here on either question would not affect any class certification on remand.
Taking the second question first, no (b)(2) class has
even yet been certified, much less an allegedly “incohesive” one. The Ninth Circuit remanded the question
of (b)(2) certification with only one directive: that the
district court not conduct a (b)(3) predominance inquiry as part of its reconsideration. App.35. So until a
(b)(2) class is certified over some yet-to-be-discovered
“cohesiveness” objection, there is no question about
(b)(2) “cohesiveness” this Court can resolve that could
conceivably “affect the rights” of the parties here.
Petitioners’ first question is similarly flawed. A reversal would not undo any of the (b)(3) class certifications. It could not affect the Arizona or Florida classes
because those certifications did not depend on use of
the survey. Both are training season classes “during
which virtually all players are completely unpaid for
their participation” (App.44), so both can establish liability “simply by showing that the class members
performed any compensable work.” App.45-47.
The California class can also prove many of their
claims through “team schedules alone—independent
of the Main Survey or any other evidence.” App.49.
Working seven days in a workweek constitutes overtime under California law, and “approximately 6585% of California League players had at least one
workweek with games on all seven days” and half the
season included seven-day workweeks, all of which
can be established without the survey. App.48-49, 50.
The “strong prudential considerations disfavoring
the exercise of the Court’s certiorari power” when the
parties” rights “would be unaffected,” could scarcely
be stronger than in the context of this case: an interlocutory appeal from a class certification decision that
would not be impacted by a decision of this Court.

34
CONCLUSION
The petition for a writ of certiorari should be denied.
Respectfully submitted,
ROBERT L. KING
Counsel of Record
GARRETT BROSHUIS
KOREIN TILLERY LLC
One U.S. Bank Plaza
505 North 7th Street
Suite 3600
St. Louis, MO 63101
(314) 241-4844
(rking@koreintillery.com)
August 12, 2020

Counsel for Respondents

